                                                OFFICE OF FEDERAL CONTRACT
                                                COMPLIANCE PROGRAMS


Office of Inspector General—Office of Audit






                                                RECOVERY ACT: ENFORCEMENT OF FEDERAL
                                                EQUAL EMPLOYMENT OPPORTUNITY LAWS




                                                This audit was performed by Ollie Green & Company, CPA’s, under contract to
                                                the Office of Inspector General, and by acceptance, it becomes a report of the
                                                Office of Inspector General.



                                                                   __________________________________ 

                                                                     Assistant Inspector General for Audit 





                                                                                   Date Issued:              March 31, 2011
                                                                                Report Number:             18-11-007-04-410
U.S. Department of Labor                                   March 2011
Office of Inspector General
Office of Audit                                            Recovery Act: Enforcement of Federal Equal
                                                           Employment Opportunity Laws

BRIEFLY…
Highlights of Report Number: 18-11-007-04-410, to the
Director, Office of Federal Contract Compliance            WHAT OIG FOUND
Programs.                                                  The OIG found that OFCCP adequately conducted 649
                                                           Recovery Act compliance evaluations, 14 pre-award
WHY READ THE REPORT                                        reviews, and 120 outreach activity events from
Congress enacted the American Recovery and                 Recovery Act inception (February 17, 2009) through
Reinvestment Act of 2009 (Recovery Act), to promote        October 31, 2010. This level of activity was consistent
economic recovery and assist those impacted by the         with OFCCP’s Recovery Act program goals. Our audit
recession. Title VIII of the Recovery Act provided the     also found that OFCCP’s workload was not impacted by
Department of Labor (DOL) with $80 million for             the Recovery Act workload.
Departmental Management funds specifically for
enforcement of worker protection laws in the Act. As
part of its operating plan for the Departmental
                                                           WHAT OIG RECOMMENDED
Management funds the U.S. Department of Labor
                                                           There were no findings and recommendations as a
allocated $7.2 million to the Office of Federal Contract
                                                           result of this audit.
Compliance Programs (OFCCP) for enforcement of
Federal equal employment opportunity (EEO)
                                                           The OFCCP agrees with the report results.
requirements on Recovery Act contracts.

WHY OIG CONDUCTED THE AUDIT
The Office of Inspector General (OIG) conducted an
audit to determine OFCCP’s activities to enforce
compliance with Federal laws and an executive order
on equal employment opportunity by Federal
contractors that received Recovery Act funds.
Specifically, our audit objectives were to answer the
following questions:

(1)What compliance evaluations had been conducted
by OFCCP of contractors with Recovery Act funding,
and what were the results of those evaluations?

(2)What pre-award reviews of supply and service
contractors with Recovery Act funding has OFCCP
conducted, and what were the results of those reviews?

(3)What outreach activities had OFCCP conducted for
companies seeking Recovery Act contracts, and what
were the results of those outreach activities?

(4)What has been the impact of OFCCP’s increased
workload due to the Recovery Act on the program’s
ability to meet its regularly scheduled enforcement,
compliance, and outreach activities?

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2011/18-11-
007-04-410.pdf
                                                               Prepared by Ollie Green & Company, CPA’s
                                             for the U.S. Department of Labor – Office of Inspector General


Table of Contents 

Independent Auditor's Report ..................................................................................... 1 


Results In Brief .............................................................................................................. 2


Objective 1 — What compliance evaluations had been conducted by OFCCP of 

              contractors with Recovery Act funding, and what were the results 

              of those evaluations? .......................................................................... 3

              OFCCP conducted 649 Recovery Act compliance evaluations to 

              increase contractors’ awareness of their roles and responsibilities 

              regarding EEO. ............................................................................................... 3


Objective 2 — What pre-award reviews of supply and service contractors with 

              Recovery Act funding had OFCCP conducted, and what were the 

              results of those reviews? .................................................................... 4

              OFCCP conducted 14 pre-award reviews, resulting in one Letter of 

              Compliance with a Conciliation Agreement. .................................................... 4


Objective 3 — What outreach activities had OFCCP conducted for companies 

              seeking Recovery Act contracts, and what were the results of 

              those outreach activities? ................................................................... 5

              OFCCP conducted 120 outreach activities to educate the public and 

              interested parties about EEO requirements .................................................... 5


Objective 4 — What was the impact as a result of the Recovery Act on the 

              program’s ability to meet its regularly scheduled enforcement, 

              compliance, and outreach activities?................................................. 5

              OFCCP’s regularly scheduled workload was not impacted by the 

              Recovery Act workload.................................................................................... 5


Exhibit
         Exhibit 1 Outreach Activities Selected In Sample ................................................. 9


Appendices
         Appendix A Background ..................................................................................... 13

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 17

         Appendix C Acronyms and Abbreviations .......................................................... 21

         Appendix D OFCCP Response to Draft Report .................................................. 23

         Appendix E Acknowledgements ......................................................................... 25





                                                                    Recovery Act: Enforcement of Federal EEO Laws
                                                                                       Report No. 18-11-007-04-410
                       Prepared by Ollie Green & Company, CPA’s
     for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                      Recovery Act: Enforcement of Federal EEO Laws
                                         Report No. 18-11-007-04-410
                                                 Prepared by Ollie Green & Company, CPA’s
                               for the U.S. Department of Labor – Office of Inspector General




                            Independent Auditor’s Report

Ms. Patricia A. Shiu
Director Office of Federal Contract
   Compliance Programs
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was passed to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. Title VIII of the Recovery Act provided the Department of Labor with
$80 million for Departmental Management Funds specifically for enforcement of worker
protection laws in the Act. As part of its operating plan for the Departmental
Management funds, the Department of Labor allocated $7.2 million to the Office of
Federal Contract Compliance Programs (OFCCP) for enforcement of Federal Equal
Employment Opportunity (EEO) requirements on Recovery Act contracts.

The OFCCP is responsible for ensuring the compliance of Federal contractors and
subcontractors with Federal EEO laws and with one executive order on affirmative
action. To assist employers in meeting these requirements, OFCCP provides
compliance assistance programs intended to increase awareness of the importance of
monitoring workplaces to prevent discriminatory practices and behavior.

In its initial operating plan submitted March 2009, the Department estimated that
OFCCP’s EEO enforcement workload would increase by an additional 3,350 contractors
and 15,070 facilities and construction sites because of Recovery Act contracts. These
figures represented an increase from “some 28,000 contractors in 137,000 facilities and
construction sites.”

Our audit objectives were to determine (1) what compliance evaluations had been
conducted by OFCCP of contractors with Recovery Act funding, and what were the
results of those evaluations; (2) what pre-award reviews of supply and service
contractors with Recovery Act funding had OFCCP conducted, and what were the
results of those reviews; (3) what outreach activities had OFCCP conducted for
companies seeking Recovery Act contracts, and what were the results of those
outreach activities; and (4) what was the impact as a result of the Recovery Act on the



                                                Recovery Act: Enforcement of Federal EEO Laws
                                            1                      Report No. 18-11-007-04-410 

                                                 Prepared by Ollie Green & Company, CPA’s
                               for the U.S. Department of Labor – Office of Inspector General

OFCCP’s ability to meet its regularly scheduled enforcement, compliance and outreach
activities.

To conduct our audit, we tested compliance evaluations, pre-award reviews, and
outreach activities that occurred from February 17, 2009, (Recovery Act inception)
through September 30, 2010, against Recovery Act provisions. We collected
information from structured interviews with OFCCP officials and from other sources at
OFCCP in national, regional, and district offices.


RESULTS IN BRIEF

OFCCP conducted 649 ARRA compliance evaluations. Our audit found that 51 of 131
documented compliance evaluations selected in our sample resulted in the issuance of a
Letter of Compliance. Another 67 resulted in the issuance of a Letter of Compliance with
Conciliation Agreements for EEO violations. The remaining 13 were administratively
closed.

We also found that OFCCP conducted 14 Recovery Act Pre-Award Reviews. Our audit
found that Letters of Compliance had been issued to 12 contractors reviewed signifying
compliance with EEO Laws and Executive Order 11246. One contractor was issued a
Letter of Compliance with a Conciliation Agreement for EEO violations. The remaining
compliance evaluation was administratively closed because the contractor did not have
50 employees. OFCCP provided sufficient evidentiary documentation to verify that 13
pre-award reviews were adequately conducted.

Our audit found that OFCCP conducted 120 outreach activities for contractors and other
interested parties seeking Recovery Act contracts. OFCCP indicated in its Program
Specific Recovery Act plan that 8,882 contractors and other interested parties attended
its outreach activities. OFCCP provided sufficient documentation to verify that the 20
outreach activities selected in our sample were properly conducted.

Finally, our audit found that OFCCP’s ability to meet its regularly scheduled
enforcement, compliance, and outreach activities was not negatively impacted by the
additional Recovery Act workload. The fiscal year 2010 ARRA workload of regular
4,377 compliance evaluations, pre-award reviews, and Functional Affirmative Action
Plans (FAAP) remained virtually unchanged from the fiscal year 2008 pre-ARRA
workload of 4,333. Our audit also found that OFCCP had received a budget increase
that allowed it to hire additional staff to conduct evaluations and reviews. These funds
were allocated to OFCCP in addition to the Recovery Act allocation.

We determined that OFCCP conducted Recovery Act compliance evaluations, pre-
award reviews and outreach activities. At the same time they continued regularly
scheduled enforcement, compliance, and outreach activities; therefore, the report does
not include recommendations to DOL.



                                                Recovery Act: Enforcement of Federal EEO Laws
                                            2                      Report No. 18-11-007-04-410 

                                                  Prepared by Ollie Green & Company, CPA’s
                                for the U.S. Department of Labor – Office of Inspector General


The Office of Federal Contract Compliance Programs (OFCCP) was generally pleased
with the results of the audit entitled "Recovery Act: Enforcement of Federal Equal
Employment Opportunity Laws.” The audit also demonstrated that the agency exceeded
its goals as described in the Plan and met all reasonable expectations of performance
providing enforcement activities and compliance assistance for companies contracting
with the Federal government via the Recovery Act. OFCCP’s comments are included in
their entirety in Appendix D.

There were no findings and recommendations as a result of this audit. The OIG has
made technical changes to the report based on comments OFCCP provided in
response to the draft report. We believe OFCCP enforcement of Federal EEO laws
effectively complied with the Recovery Act activities funding requirements and funds
were spent consistent with OFCCP’s Recovery Act program goals.


RESULTS

Objective 1 — What compliance evaluations had been conducted by OFCCP of
              contractors with Recovery Act funding, and what were the results
              of those evaluations?


       OFCCP conducted 649 Recovery Act compliance evaluations to increase
       contractors’ awareness of their roles and responsibilities regarding EEO.

OFCCP conducted 649 compliance evaluations and exceeded the stated goal of 450.
OFCCP achieved 144 percent (144%) of its program plan goals from Recovery Act
inception to October 31, 2010. We obtained and reviewed 131 case files judgmentally
selected to validate that OFCCP sufficiently documented the required scope of the
compliance evaluation work.

Federal contractors in receipt of Recovery Act funds must be compliant with EEO laws
and regulations and ensure fairness in employment activities. Through compliance
evaluations and outreach activities, OFCCP increased contractors’ awareness of their
roles and responsibilities with its EEO laws and regulations. OFCCP conducted
compliance evaluations of construction contractors, as well as supply and service
contractors, who were in receipt of Recovery Act funding and grants. The majority of
federal contractors were recipients of direct or federally-assisted funds for construction
projects. Consequently, OFCCP placed a special emphasis on the construction
industry.

From our sample of 131 compliance evaluations, we found that 51 resulted in the
issuance of Letters of Compliance. Another 67 resulted in the issuance of Letters of
Compliance with Conciliation Agreements for EEO violations, while the remaining 13
were administratively closed. OFCCP closed 11 of the 13 administratively because the

                                                 Recovery Act: Enforcement of Federal EEO Laws
                                             3                      Report No. 18-11-007-04-410 

                                                 Prepared by Ollie Green & Company, CPA’s
                               for the U.S. Department of Labor – Office of Inspector General

employer had less than 50 employees. OFCCP closed the remaining two for other
reasons (see Table 1 below).


Table1: Compliance Evaluations Selected In Sample and Results


                        No.        No. That          No. That          No. That Resulted
                      Selected    Resulted In       Resulted In                in
Region & District        In        Letter of        Conciliation        Administrative
     Office           Sample      Compliance        Agreement               Closing

Mid-Atlantic
Baltimore                 14             7                 5                      2

Richmond                  15             4                10                      1


Mid-West
Chicago                   60            19                32                      9

Detroit                   4             2                  2


Pacific
San Francisco             13            11                 2
Phoenix                   25            8                 16                      1

       Total             131            51                67                     13

Objective 2 — What pre-award reviews of supply and service contractors with
              Recovery Act funding had OFCCP conducted, and what were the
              results of those reviews?


      OFCCP conducted 14 pre-award reviews, resulting in one Letter of Compliance
      with a Conciliation Agreement.

We obtained and reviewed the case files for the 14 Recovery Act pre-award reviews
conducted by OFCCP to verify that the file sufficiently documented the required scope of
the pre-award review work. OFCCP conducted the 14 pre-award reviews of new
Recovery Act supply and service contractors with contracts of $10 million or more and
evaluated compensation practices of Recovery Act contractors.

OFCCP issued Letters of Compliance to 12 of the 14 contractors reviewed signifying
compliance with EEO Laws and Executive Order 11246. OFCCP issued one contractor
a Letter of Compliance with a Conciliation Agreement for EEO violations and one
compliance evaluation was administratively closed because the contractor did not have


                                                 Recovery Act: Enforcement of Federal EEO Laws
                                             4                      Report No. 18-11-007-04-410 

                                                 Prepared by Ollie Green & Company, CPA’s
                               for the U.S. Department of Labor – Office of Inspector General

50 employees. OFCCP provided sufficient documentation to verify the adequacy of the
pre-award reviews conducted.

Objective 3 — What outreach activities had OFCCP conducted for companies
              seeking Recovery Act contracts, and what were the results of
              those outreach activities?

      OFCCP conducted 120 outreach activities to educate the public and interested
      parties about EEO requirements.

We judgmentally selected a sample of 20 Recovery Act outreach activities and validated
they were conducted as required by Recovery Act provisions. Exhibit 1 provides the list
of Recovery Act outreach activities selected in our sample and details the number of
attendees, dates, and locations for the outreach activities. Our audit found that OFCCP
provided sufficient documentation to verify that the 20 outreach activities randomly
selected in our sample were adequately conducted. Documentation provided also
substantiated that 1,671 contractors and other interested parties had attended and
received training.

OFCCP indicated in its Program Specific Recovery Act Plan that it hosted 120
compliance events, reaching 8,882 contractors, to educate the public and interested
parties about EEO requirements in federal contracts. OFCCP worked with General
Services Administration and state contracting agencies to participate in pre-construction
conferences with general or prime contractors. This effort included meeting with union
representatives to communicate requirements that must be adhered to by general and
prime contractors. General and prime contractors have the responsibility of
communicating EEO requirements to subcontractors. OFCCP provided assistance in
preparing these notifications.

Objective 4 — What was the impact as a result of the Recovery Act on the
              program’s ability to meet its regularly scheduled enforcement,
              compliance, and outreach activities?


      OFCCP’s regularly scheduled workload was not impacted by the Recovery Act
      workload.

Table 2 below illustrates that OFCCP conducted 4,333 regularly scheduled evaluations
and reviews from October 1, 2007, through September 30, 2008, (pre-Recovery Act
period) and 4,377 regularly scheduled evaluations and reviews from October 1, 2009,
through September 30, 2010, (Recovery Act era). We did not include a comparative
analysis of the period October 1, 2008, through September 30, 2009, because we
considered this a transition year for Recovery Act activity. As indicated in Table 2,
OFCCP conducted 44 more regularly scheduled evaluations and reviews during the
Recovery Act era than in the pre-Recovery Act period. OFCCP management indicated
that OFCCP received a budget increase to hire additional staff to conduct evaluations

                                                Recovery Act: Enforcement of Federal EEO Laws
                                            5                      Report No. 18-11-007-04-410 

                                                        Prepared by Ollie Green & Company, CPA’s
                                      for the U.S. Department of Labor – Office of Inspector General

and reviews. These funds were allocated to OFCCP in addition to the Recovery Act
funds. Based on the pre-Recovery Act/Recovery Act era comparative workload
analysis, OFCCP’s ability to meet its regularly scheduled enforcement, compliance, and
outreach activities were not impacted as a result of the additional Recovery Act
workload. Overall, regularly scheduled workload remained virtually unchanged.

Table2: Pre-Recovery Act and Recovery Act Era Workload

                                  Pre-Recovery Act           Recovery Act Era
          Workload                     Volume                     Volume                Workload
           Type 1                (10/1/07 to 9/30/08)       (10/1/09 to 9/30/10)        Variance

Compliance Evaluations                    4,125                         4,166                41 


Pre-Award Reviews                           134                          185                 51

FAAP                                          74                           26               (48)

Total                                     4,333                         4,377                44

At the same time OFCCP continued regularly scheduled enforcement, compliance and
outreach activities, we determined they conducted Recovery Act compliance
evaluations, pre-award reviews and outreach activities. Therefore, the report does not
include recommendations to DOL.

We appreciate the cooperation and courtesies that OFCCP personnel extended to the
Ollie Green & Company, CPA’s during this audit. Personnel who made major
contributions to this report are listed in Appendix E.




Ollie Green, MBA, CPA
Managing Partner




1
    This workload is regularly scheduled (non-Recovery Act) Workload.

                                                         Recovery Act: Enforcement of Federal EEO Laws
                                                     6                      Report No. 18-11-007-04-410
                              Prepared by Ollie Green & Company, CPA’s
            for the U.S. Department of Labor – Office of Inspector General




Exhibit 





                             Recovery Act: Enforcement of Federal EEO Laws
                         7                      Report No. 18-11-007-04-410
                       Prepared by Ollie Green & Company, CPA’s
     for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                      Recovery Act: Enforcement of Federal EEO Laws 

                  8                      Report No. 18-11-007-04-410 

                                                     Prepared by Ollie Green & Company, CPA’s
                                   for the U.S. Department of Labor – Office of Inspector General

                                                                                         Exhibit 1 

Outreach Activities Selected In Sample


               Outreach Activity                 Number of         Date(s)        Location(s)
                 Conducted                       Contractor/         Of               Of
                     By                            Other           Events           Events
                   OFCCP                         Attendees

 Hudson County Counsel’s Office (EEO Staff)           3           10/20/09       Jersey City, NJ
 ARRA-MEGA PROJECT–DBE-Pre-Bid
 Conference JV Barnrad/Judlau                        100          10/23/10        Newark, NJ
 Compliance Assistance at the Safety
 NETworking Information Event                        170          11/17/09       New York, NY
 ARRA Mega Mass Transit Tunnel Project
 Steering Committee Meeting                          25           1/21/10         Newark, NJ
 ARRA Construction Webinar                           415          3/16/10       Washington, DC
 ARRA Construction Webinar                           10           3/30/10       Washington, DC
 Mid-Atlantic Regional ARRA Forum for
 Construction Contractors, Supply & Service
 Contractors and Community Based
 Organizations from Pennsylvania, Delaware
 and Maryland area.                                  120          11/4/09       Wilmington, DE
 ARRA Preconstruction Meeting                         20          11/17/09     Virginia Beach, VA
 Homeless Veterans Workshop                          110          8/11/10        Richmond, Va.
 Affirmative Action Plan development and
 Preparing for a Desk Audit for ARRA
 Contractors                                          5           8/12/10        Baltimore, MD
 How Diversity Positively Impacts
 Business/Frank K. Ross Scholastic
 Achievement Award Ceremony and
 Networking Reception                                150           8/4/00         Chicago, IL
 Los Angeles District Office: Town Hall on the
 American Recovery and Reinvestment Act for
 Southern California Small Businesses                200          02/26/10      Los Angeles, CA
 Los Angeles District Office: EEO (including
 ARRA) Public Forum                                  50           03/11/10      Los Angeles, CA
 Los Angeles District Office: Century Training
 Organization                                        10           12/07/09      Los Angeles, CA
 Greater San Francisco/Bay District Office:
 GSA Small Business                                  100          02/10/10     San Francisco, CA
 Seattle District Office: ARRA Forum –
 Technical Assistance with Governor’s
 Marketplace                                         118          10/08/09        Portland, OR
 Engineering & Construction Mgmt (ECM)-
 Compliance Assistance                               3            2/22/10       New Orleans, LA
 C&C Technologies- Compliance Assistance             2            2/24/10       New Orleans, LA
 AARA Federal Department of Transportation           20           12/1/09         Orlando, FL
 Minact Incorporated                                 40           12/2/09        Jackson, MS
                                                     1,671


                                                     Recovery Act: Enforcement of Federal EEO Laws 

                                                 9                      Report No. 18-11-007-04-410 

                       Prepared by Ollie Green & Company, CPA’s
     for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                       Recovery Act: Enforcement of Federal EEO Laws
                  10                      Report No. 18-11-007-04-410
                                 Prepared by Ollie Green & Company, CPA’s
               for the U.S. Department of Labor – Office of Inspector General




Appendices 





                                 Recovery Act: Enforcement of Federal EEO Laws
                            11                      Report No. 18-11-007-04-410
                       Prepared by Ollie Green & Company, CPA’s
     for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                       Recovery Act: Enforcement of Federal EEO Laws
                  12                      Report No. 18-11-007-04-410
                                                         Prepared by Ollie Green & Company, CPA’s
                                       for the U.S. Department of Labor – Office of Inspector General

                                                                                                 Appendix A
Background


The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As of August 19, 2010, Congress provided $70.8 billion to DOL. See
Table 3 below.

Table 3: Department of Labor Recovery Act Funding, as of August 19, 2010

                                                                             Amount a
Program                                                                     (millions)         Percent
Unemployment Insurance &                                                      $65,996           93.17
Training and Employment Services                                                 3,950            5.58
State Unemployment Insurance and Employment
Service Operations                                                                  400           0.56
Community Service Employment for Older Americans                                    120           0.17
National Emergency Grants for Health Insurance
Coverage                                                                             40           0.06
Job Corps                                                                           250           0.35
Departmental Management                                                               80          0.11 

Total                                                                          $70,836b         100.00 

a
  – The amounts other than “Unemployment Insurance and National Emergency Grants for Health Insurance
Coverage” were obtained from the Recovery Act dated February 17, 2009. The “Unemployment Insurance” amount
was provided by the Office of the Assistant Secretary for Administration and Management, and includes amounts
made available for Federal and State Extended Benefits, Extension of Emergency Unemployment Compensation,
and Federal Additional Unemployment Compensation programs. The National Emergency Grants for Health
Insurance Coverage amounts were adjusted in United States Public Law 111-226 (HR1586).
b
  – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s
Recovery Act activities.

The Recovery Act provided the U.S. Department of Labor (Department/DOL) with funds
to, among other things, increase employment and training opportunities. The stated
purposes of the Recovery Act were to:

    •		 Preserve and create jobs and promote economic recovery;
    •		 Assist those most impacted by the recession;
    •		 Provide investments needed to increase economic efficiency by spurring 

        technological advances in science and health; and 




                                                             Recovery Act: Enforcement of Federal EEO Laws
                                                       13&
                                                         	                      Report No. 18-11-007-04-410 

                                                   Prepared by Ollie Green & Company, CPA’s
                                 for the U.S. Department of Labor – Office of Inspector General

   •		 Invest in transportation, environmental protection, and other infrastructure
       that will provide long-term economic benefits; and stabilize state and local
       government budgets, in order to minimize and avoid reductions in essential
       services and counterproductive state and local tax increases.

The Recovery Act required agencies to implement an unprecedented level of
transparency and accountability to ensure the public could see where and how their tax
dollars were spent and recipients of these funds delivered programmatic results.

Title VIII of the Recovery Act provided the Department of Labor with $80 million for
Departmental Management funds specifically for enforcement of worker protection laws
in the Act. As part of its operating plan for the Departmental Management funds, the
U.S. Department of Labor allocated $7.2 million to the Office of Federal Contract
Compliance Programs (OFCCP) for enforcement of Federal equal employment
opportunity (EEO) requirements on Recovery Act contracts. OFCCP’s Recovery Act
Plan described how it would spend the $7.2 million it received under the Departmental
Management appropriation. These activities included:

    •		 Conducting compliance evaluations of construction contractors with Recovery
        Act funding;
    •		 Conducting compliance evaluations of supply and service contractors with 

        Federal contracts funded by the Recovery Act; 

    •		 Conducting a limited number of pre-award reviews of new and service 

        contractors with contracts of $10 million or more; 

    •	 Evaluating compensation practices of Recovery Act contractors;
    •		 Scheduling outreach events for new contractors, current Federal contractors,
        Contracting Officers (at least 10 Federal Agencies) to educate them on EEO
        Requirements; and
    •		 Recommending enforcement for contractors where discrimination is identified or
        access denied and conciliation efforts have failed.

As a result of the evaluations, OFCCP issued Letters of Compliance confirming that an
evaluation was performed and that no evidence of discriminatory practices and behavior
was found. In those instances where it was found, OFCCP enters into compilation
Agreement with the contractors.

The OFCCP is responsible for ensuring Federal contractors’ and subcontractors’
compliance with Federal EEO laws and one executive order on affirmative action.
These laws and the order prohibit Federal employers and contractors from
discriminating on the basis of race, color, religion, gender, national origin, disability and
protected veterans’ status. They include Section 503 of the Rehabilitation Act of 1973,
the Vietnam Era Veterans’ Readjustment Assistance Act of 1974, and Executive Order
11246. In addition to enforcing Federal EEO requirements, OFCCP provides
compliance assistance programs to help employers monitor their workplaces to prevent
discriminatory practices and behavior.


                                                    Recovery Act: Enforcement of Federal EEO Laws
                                              14&
                                                	                      Report No. 18-11-007-04-410 

                                                  Prepared by Ollie Green & Company, CPA’s
                                for the U.S. Department of Labor – Office of Inspector General

OFCCP administers its programs through a national office in Washington, D.C., and six
(6) regional offices that cover 47 district offices. Compliance officers, investigators, and
other field staff carry out compliance and enforcement actions.




                                                  Recovery Act: Enforcement of Federal EEO Laws 

                                             15                      Report No. 18-11-007-04-410 

                       Prepared by Ollie Green & Company, CPA’s
     for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                       Recovery Act: Enforcement of Federal EEO Laws
                  16                      Report No. 18-11-007-04-410
                                                  Prepared by Ollie Green & Company, CPA’s
                                for the U.S. Department of Labor – Office of Inspector General

                                                                                   Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to determine:

(1) &
    	 What compliance evaluations had been conducted by OFCCP of contractors with
      Recovery Act funding, and what were the results of those evaluations;

(2) &
    	 What pre-award reviews of supply and service contractors with Recovery Act
      funding had OFCCP conducted, and what were the results of those reviews;

(3) &
    	 What outreach activities had OFCCP conducted for companies seeking
      Recovery Act contracts, and what were the results of those outreach activities;
      and

(4) &
    	 What was the impact as a result of the Recovery Act on the OFCCP’s ability to
      meet its regularly scheduled enforcement, compliance, and outreach activities.

Scope

Our performance audit period was from February 17, 2009, (the enactment of the
Recovery Act) through October 31, 2010. We also reviewed non-ARRA evaluations
from October 1, 2007, through, September 30, 2008. Our field verification work was
conducted at the National Office in Washington D.C., the Mid-West Regional Office and
five District Offices located within the following three Regions:

   •    Region – 3 – Mid-Atlantic – Baltimore and Richmond;
   •    Region – 5 – Mid-West – Chicago and Detroit;
   •    Region – 6 – Pacific – San Francisco and Phoenix.

The information in this report was developed by DOL-OIG independent of OFCCP. The
DOL-OIG is legislatively independent and charged with performing independent audits
of DOL. Ollie Green and Company under contract with the DOL-OIG collected
information from structured interviews, OFCCP, OFCCP’s web-site, and field work
conducted at the national, regional, and district offices from January 31, 2011, through
February 25, 2011. Our performance audit was not designed to and we did not perform
financial audits of the amounts obligated or expended by OFCCP.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for findings
and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

                                                   Recovery Act: Enforcement of Federal EEO Laws
                                             17&
                                               	                      Report No. 18-11-007-04-410 

                                                  Prepared by Ollie Green & Company, CPA’s
                                for the U.S. Department of Labor – Office of Inspector General

Methodology

Our methodology for this performance audit included the use of random sampling.
Three separate universes were identified and used in developing the sampling plan.
The first universe consisted of Recovery Act DOL compliance evaluations conducted by
OFCCP from Recovery Act inception through October 31, 2010; the second universe
consisted of Recovery Act DOL pre-award reviews of supply and service contractors
conducted by OFCCP from Recovery Act inception through October 31, 2010; the third
universe consisted of DOL outreach activities conducted from Recovery Act inception
through October 31, 2010. The audit covered the period from Recovery Act inception
(February 17, 2009) through October 31, 2010.

We performed a data reliability assessment to ensure we were receiving complete and
accurate data sufficient to conduct our audit. To determine whether the data was
reliable, we met with the Deputy Director of OFCCP at the National Office to discuss
controls over the processing and reporting of fiscal and performance data. To gain a
better understanding of OFCCP’s processes and systems, we requested and received a
description of systems and controls in place designed to ensure the integrity of data
processed at national, regional, and district offices. We used checklists to assess the
integrity of the information reviewed in each case file selected in our sample. If case file
documentation was questionable or incomplete based on checklist requirements, we
discussed concerns with Regional and/or District Directors and requested clarification
and/or explanation. Based on this assessment, we concluded that the data received
from OFCCP was sufficiently reliable for our audit purposes.

For Recovery Act compliance evaluations, we used random sampling to select the
Regions and Districts where the audit verification work was to be conducted.
Depending on the district, we either selected all evaluations, a representative mix of
supply and service and construction contractor evaluations, or just large construction
contractor evaluations. For Recovery Act pre-award reviews, we selected all 14
conducted by OFCCP during the audit period. For Recovery Act outreach activities, we
judgmentally selected 20 of 120 events conducted by OFCCP during the audit period.
Each sampling unit was tested for multiple characteristics to establish compliance with
Recovery Act provisions. An explanation of the audit test results and relevance of the
test to the audit’s objectives is provided in the body of the audit report.

Our methodology also included assessing the impact of OFCCP’s increased workload
due to the Recovery Act on the program’s ability to meet its regularly scheduled
enforcement, compliance, and outreach activities. To conduct this part of our work we
requested and received the pre-recovery Act period enforcement, compliance, and
outreach activities workload and compared this data to the enforcement, compliance,
and outreach activities workload for the period beginning February 17, 2009, through
October 31, 2010. We then calculated the variance.

A performance audit includes gaining an understanding of internal controls considered
significant to the audit objectives, testing controls, and testing compliance with

                                                  Recovery Act: Enforcement of Federal EEO Laws
                                             18                      Report No. 18-11-007-04-410 

                                                  Prepared by Ollie Green & Company, CPA’s
                                for the U.S. Department of Labor – Office of Inspector General

significant laws, regulations, and other requirements. For this engagement, we
obtained an understanding of OFCCP’s processes for evaluating the integrity and
quality of its compliance evaluations, pre-award reviews, and outreach activities. The
testing of internal controls over this process was not determined to be significant to our
audit objectives.

Criteria

We used the following Criteria to accomplish our audit:

1. 	The American Recovery and Reinvestment Act of 2009 (P.L. 111-5);

2. 	Initial Implementing Guidance for the American Recovery and Reinvestment Act of
    2009 - (M-09-10) dated February 18, 2009;

3. 	Updated Implementing Guidance for the American Recovery and Reinvestment Act
    of 2009- (M-09-15) dated April 3, 2009;

4. 	Section 503 of the Rehabilitation Act of 1973;

5. 	 The Vietnam Era Veterans’ Readjustment Assistance Act of 1974;

6. 	Executive Order 11246;

7. 	The Federal Acquisition Regulations (FAR);

8. Civil Rights Act of 1964 – Title VII – Equal Employment Opportunities;

9. 	OFCCP Ord. No. ADM-09-1/SEL




                                                   Recovery Act: Enforcement of Federal EEO Laws 

                                             19	                      Report No. 18-11-007-04-410 

                       Prepared by Ollie Green & Company, CPA’s
     for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                       Recovery Act: Enforcement of Federal EEO Laws
                  20                      Report No. 18-11-007-04-410
                                               Prepared by Ollie Green & Company, CPA’s
                             for the U.S. Department of Labor – Office of Inspector General

                                                                               Appendix C
Acronyms and Abbreviations

ARRA           American Recovery and Reinvestment Act of 2009

DOL            Department of Labor

EEO            Equal Employment Opportunity

FAAPS          Functional Affirmative Action Plans

OFCCP          Office of Federal Contract Compliance Programs

OG&C           Ollie Green & Company, CPA’s

OIG            Office of Inspector General

Recovery Act   American Recovery and Reinvestment Act of 2009




                                               Recovery Act: Enforcement of Federal EEO Laws 

                                          21                      Report No. 18-11-007-04-410 

                      Prepared by Ollie Green & Company, CPA’s
    for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                      Recovery Act: Enforcement of Federal EEO Laws 

                 22                      Report No. 18-11-007-04-410 

                                                       Prepared by Ollie Green & Company, CPA’s
                                     for the U.S. Department of Labor – Office of Inspector General

                                                                  Appendix D
Office of Federal Contract Compliance Program Response to Draft Report




   U.S. Department of Labor                   Office of Federal Conlracl
                                              Compliance Programs
                                              200 Constitution Avenue, N.W.
                                              Washington, D.C. 20210
         MAR 2 5 2011


     MEMORANDUM FOR ELIOIT P. LEWIS
                    Assistant Inspector Genera1 for Audit
                    Officc of Inspector General

     FROM:                     PATRICIA A. SHIU; ' >
                               Directo,                (el 1/I!
                                                                     /        c0.
                                                                    L" '{[I'-'~
                                                                   td
                               Office of Federal Contract CMrlphance Programs

     SUBJECT:                  Response to Draft Report No. 18-11-007-04-410
                               Recovery Act: Enforcement of Federal Equal
                               Employment Opportunity Laws


     The Office of Federal Contract Compliance Programs (OFCCP) is generally pleased with the
     results of the audit entitled "Recovery Act: Enforcement of Federal EquaJ Employment
     Opportunity Laws." OFCCP's program activities were essential to providing protection against
     discrimination for workers who were employed by. or sought employment with. federaJ
     contractors receiving funding from the American Recovery and Reinvestment Act of2009.
     While the Recovery Act was enacted to provide an economic stimulus, it was important for
     OFCCP to represent a consistent commitment on behalf of the Federal government to ensure
     equal opportunity and fairness in how the country's resources were deployed. The draft report
     verifies the performance of compliance evaluations, pre-award reviews and outreach as
     stipulated in OFCCP's Program Specific Recovery Act Plan. Your audit results also demonstrate
     that the agency exceeded its goals as described in the Plan and met all reasolmbh:: c::xpcctatiums uf
     perfonnance providing enforcement activities and compliance assistance for companies
     contracting with the Federal government via the Recovery Act.

     As stated, we are generally pleased and agree with your findings. There are, however, several
     specific comments we offer in order to improve the report's communication. First, given the
     auditor's positive findings we think it would be appropriate to describe more clearly that OFCCP
     performed well and implemented the Recovery Act program successfully in the "Results In
     Brief' section. Lastly, it is important for reviewers of this report to know that OFCCP Recovery
     Act program activities have ceased as of September 30, 2010. In some instances, the report may
     be interpreted as though our Recovery Act program is still in effect.

     We appreciate the professional manner in which the audit was conducted.




                                                          Recovery Act: Enforcement of Federal EEO Laws
                                                     23                      Report No. 18-11-007-04-410
                      Prepared by Ollie Green & Company, CPA’s
    for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                      Recovery Act: Enforcement of Federal EEO Laws 

                 24                      Report No. 18-11-007-04-410 

                                              Prepared by Ollie Green & Company, CPA’s
                            for the U.S. Department of Labor – Office of Inspector General

                                                                             Appendix E
Acknowledgements

Key contributors to this report were Ollie Green, MBA, CPA (Managing Partner) Mr.
Jerome Cooper (OIG Task Monitor), Susan Savitch, MS, CPA (Audit Manager), Andrea
Morris, CPA (Audit Manager), Sharon Adams, CIA, CPA (Audit Manager), Nermina
Mustafic (Staff Accountant), Elaine Styles (Staff Accountant).




                                              Recovery Act: Enforcement of Federal EEO Laws
                                         25                      Report No. 18-11-007-04-410
                       Prepared by Ollie Green & Company, CPA’s
     for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                       Recovery Act: Enforcement of Federal EEO Laws 

                  26                      Report No. 18-11-007-04-410 

TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	     http://www.oig.dol.gov/hotlineform.htm 

Email:	      hotline@oig.dol.gov 


Telephone:&
          	 1-800-347-3756 

            202-693-6999 


Fax: &       202-693-7020

Address: &   Office of Inspector General 

             U.S. Department of Labor 

             200 Constitution Avenue, N.W. 

 &           Room S-5506
             Washington, D.C. 20210 

